             EVALUATION REPORT


         REDACTED FOR PUBLIC RELEASE

 Information of Security Risk Evaluation of Region II – Atlanta GA



                 OIG-12-A-17         August 27, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                   August 27, 2012



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    INFORMATION SECURITY RISK EVALUATION OF
                            REGION II – ATLANTA, GA (OIG-12-A-17)


Attached is the Office of the Inspector General’s (OIG) evaluation report titled,
Information Security Risk Evaluation of Region II - Atlanta, GA.

The report presents the results of the subject evaluation. The agency agreed with the
evaluation findings and did not provide comments at the July 13, 2012, exit conference.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Team,
at 415-5913.

Attachment: As stated
                                OFFICIAL USE ONLY – SECURITY RELATED INFORMATION




                         Information Security Risk Evaluation of
                                 Region II – Atlanta, GA




                             REDACTED FOR PUBLIC RELEASE




                               Contract Number: GS-00F-0001N
                               NRC Order Number: D12PD01191

                                                     August 22, 2012




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.

                    OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
OFFICIAL USE ONLY – SECURITY RELATED INFORMATION




        [Page intentionally left blank]




OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                       OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                 Information Security Risk Evaluation of
                                                                                 Region II – Atlanta, GA

EXECUTIVE SUMMARY


BACKGROUND

      The U.S. Nuclear Regulatory Commission (NRC) Office of the Inspector General (OIG)
      tasked Richard S. Carson & Associates, Inc. to perform an information security risk
      evaluation of the NRC’s regional offices and the Technical Training Center. This report
      presents the results of the information security risk evaluation for Region II located in
      Atlanta, Georgia.

OBJECTIVES

      The objectives of the Region II information security risk evaluation were to:

             Perform an independent information security risk evaluation of the NRC IT
             security program, policies, and practices for compliance with the Federal
             Information Security Management Act (FISMA) of 2002 in accordance with
             OMB guidance and Federal regulations and guidelines as implemented at Region
             II.
             Evaluate the effectiveness of agency security control techniques as implemented
             at Region II.

RESULTS IN BRIEF

      Region II has made improvements in its implementation of NRC’s IT security program
      and practices for NRC IT systems since the previous evaluations in 2003, 2006, and
      2009. All corrective actions from the previous evaluations have been implemented.
      However, the Region II IT security program and practices are not always consistent with
      the NRC’s IT security program, as summarized below.

      Physical and Environmental Security Controls

      All IT equipment in the Region II data center and telecommunications closets is
      connected to short-term uninterruptible power supplies (UPSs); however, the UPSs are
      not tested on a regular basis. As a result, Region II does not have assurance the UPSs
      will perform as expected in the event of a power failure. If a UPS fails during a power
      failure, equipment may not be shut down in an orderly manner, resulting in possible
      equipment damage or loss of data.

      Region II key management procedures have not been fully implemented.




                       OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                               i
                      OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                Information Security Risk Evaluation of
                                                                                Region II – Atlanta, GA




     Continuity of Operations and Recovery

     Backup procedures are not maintained and kept up-to-date as required. As a result,
     Region II may not have reliable IT system backup information available if there is a need
     for system or file recovery.

     IT Security Program

     Some NRC-owned laptops have not been authorized to operate and documentation for
     regional laptop systems is not up-to-date. As a result, Region II is not fully compliant
     with NRC requirements for laptop systems. Without up-to-date documentation, Region
     II laptop systems users may not be aware of their responsibilities with regard to use of
     these laptops, which could lead to unauthorized use of NRC resources or release of
     sensitive information.

     Regional IT security program procedures are not kept up-to-date. As a result, steps or
     processes could be skipped or forgotten if personnel responsible for a particular activity
     are unavailable. In addition, outdated procedures make it more difficult when training
     new personnel to handle a specific activity.

RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations to improve
     NRC’s information system security program and implementation of FISMA at Region II.
     A consolidated list of recommendations appears on page 15 of this report.

AGENCY COMMENTS

     At an exit conference on July 13, 2012, agency officials agreed with the findings and did
     not provide any changes to the draft report. The agency opted not to submit formal
     comments.




                      OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                              ii
               OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                         Information Security Risk Evaluation of
                                                                         Region II – Atlanta, GA

ABBREVIATIONS AND ACRONYMS


CSO-STD      Computer Security Office Standard
FISMA        Federal Information Security Management Act
ISSO         Information Systems Security Officer
IRB          Information Resources Branch
IT           Information Technology
ITI          IT Infrastructure System
MD           Management Directive
NIST         National Institute of Standards and Technology
NRC          Nuclear Regulatory Commission
OIG          Office of the Inspector General
OMB          Office of Management and Budget
ROI          Regional Office Instruction
SGI          Safeguards Information
SP           Special Publication
UPS          Uninterruptible Power Supply




               OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                       iii
OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                          Information Security Risk Evaluation of
                                                          Region II – Atlanta, GA




         [Page intentionally left blank]




OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                        iv
                                 OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                           Information Security Risk Evaluation of
                                                                                           Region II – Atlanta, GA

TABLE OF CONTENTS


Executive Summary ....................................................................................................... i
Abbreviations and Acronyms ..................................................................................... iii

1 Background .............................................................................................................. 1
2 Objectives ................................................................................................................. 2
3 Findings .................................................................................................................... 2
  3.1 Physical and Environmental Security Controls ............................................ 3
            FINDING #1: UPSs Are Not Tested on a Regular Basis............................................................. 3
            3.1.1 Emergency Power Requirements .................................................................. 3
            3.1.2 Agency Has Not Fully Met Requirements ..................................................... 3
            3.1.3 Impact on Region II Operations ..................................................................... 3
            3.1.4 Physical Access Control Systems ................................................................ 4
            FINDING #2: Key and Combination Management Procedures Need Improvement .................. 4
            3.1.5 Physical Access Requirements ..................................................................... 5
            3.1.6 Agency Has Not Fully Met Requirements ..................................................... 5
            3.1.7 Impact on Region II Operations ..................................................................... 5
    3.2     Continuity of Operations and Recovery ........................................................ 6
            3.2.1 Region II Servers ............................................................................................ 7
            FINDING #3: Backup Procedures Are Not Up-to-Date .............................................................. 7
            3.2.2 Backup Requirements .................................................................................... 7
            3.2.3 Agency Has Not Fully Met Requirements ..................................................... 8
            3.2.4 Potential Risk of Data Loss ........................................................................... 9
    3.3     Information Technology Security Program ................................................... 9
            3.3.1 Region II Laptop Systems .............................................................................. 9
            FINDING #4: Some Laptops Are Not Authorized To Operate and Documentation for
                 Regional Laptop Systems Is Not Up-to-Date ..................................................................... 10
            3.3.2 Laptop System Requirements ..................................................................... 10
            3.3.3 Agency Has Not Fully Met Requirements ................................................... 11
            3.3.4 Impact on Region II Operations ................................................................... 12
            3.3.5 Regional Procedures and Instructions ....................................................... 12
            FINDING #5: Regional IT Security Program Procedures Are Not Kept Up-to-Date ............... 12
            3.3.6 Requirements for Updating Procedures ..................................................... 13
            3.3.7 Agency Has Not Fully Met Requirements ................................................... 13
            3.3.8 Impact on Region II Operations ................................................................... 13
4 Consolidated List of Recommendations ............................................................. 15
5 Agency Comments ................................................................................................ 17

Appendix.               OBJECTIVES, SCOPE, AND METHODOLOGY ......................................... 19



                                 OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                         v
OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                          Information Security Risk Evaluation of
                                                          Region II – Atlanta, GA




         [Page intentionally left blank]




OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                        vi
                             OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                       Information Security Risk Evaluation of
                                                                                       Region II – Atlanta, GA

1       Background

The U.S. Nuclear Regulatory Commission (NRC) has four regional offices that conduct
inspection, enforcement, investigation, licensing, and emergency response programs for nuclear
reactors, fuel facilities, and materials licensees. The regional offices are the agency’s front line
in carrying out its mission and implementing established agency policies and programs
nationwide. The Region II office oversees regulatory activities in the southeastern United States,
is located in Atlanta, Georgia, and operates under the direction of a Regional Administrator. The
region covers a 10-State area, including 8 States with nuclear power plants. Region II also
includes Puerto Rico and the U.S. Virgin Islands. Region II oversees commercial nuclear fuel
processing facilities in Illinois and Ohio, which are located in Region III, as well as New Mexico
and Washington, which are located in Region IV. Region II also handles all construction
inspection activities for all new nuclear power plants and fuel cycle facilities, regardless of
geographical location.

Office of Management and Budget (OMB) Circular A-130, Management of Federal Information
Resources, Appendix III, Security of Federal Automated Information Resources, requires
agencies to implement and maintain an information technology (IT) security program, including
the preparation of policies, standards, and procedures. An effective IT security program is an
important managerial responsibility. Management establishes a positive climate by making
computer security a part of the information resources management process and by providing
support for a viable IT security program.

On December 17, 2002, the President signed the E-Government Act of 2002, which included the
Federal Information Security Management Act (FISMA) of 2002. 1 FISMA outlines the
information security management requirements for agencies, which include an annual
independent evaluation of an agency’s information security program2 and practices to determine
their effectiveness. This evaluation must include testing the effectiveness of information security
policies, procedures, and practices for a representative subset of the agency’s information
systems. The evaluation also must include an assessment of compliance with FISMA
requirements and related information security policies, procedures, standards, and guidelines.
FISMA requires the annual evaluation to be performed by the agency’s Office of the Inspector
General (OIG) or by an independent external auditor.3

NRC maintains an IT security program to provide appropriate protection of information
resources. In this regard, the role of the NRC OIG is to provide oversight of agency programs,

1
  The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the
  E-Government Act of 2002 (Public Law 107-347) and replaces the Government Information Security Reform Act,
  which expired in November 2002.
2
  NRC uses the term “information security program” to describe its program for ensuring that various types of
  sensitive information are handled appropriately and are protected from unauthorized disclosure in accordance with
  pertinent laws, Executive orders, management directives, and applicable directives of other Federal agencies and
  organizations. For the purposes of FISMA, the agency uses the term IT security program.
3
  While FISMA uses the language “independent external auditor,” OMB Memorandum M_04-25, FY 2004
  Reporting Instructions for the Federal Information Security Management Act, clarified this requirement by stating
  that “Within the context of FISMA, an audit is not contemplated. By requiring an evaluation but not an audit,
  FISMA intended to provide Inspectors General some flexibility…”


                             OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                     1
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA

including the IT security program in support of the NRC goal to ensure the safe use of
radioactive materials for beneficial civilian purposes while protecting people and the
environment.

In support of its FISMA obligations, the NRC OIG tasked Richard S. Carson & Associates, Inc.
to perform an information security risk evaluation of the NRC’s regional offices and the
Technical Training Center to evaluate IT security programs in place at those locations, to include
an assessment of physical security weaknesses in protecting the IT security program, and to
identify existing problems and make recommendations for corrective actions.

The information security risk evaluation focused on the following elements of the NRC’s IT
security program, policies, and practices:

       Physical and Environmental Security Controls.
       Logical Access Controls.
       Configuration Management.
       Continuity of Operations and Recovery.
       IT Security Program.

This report presents the results of the information security risk evaluation for Region II. A
consolidated list of recommendations appears on page 15.

2      Objectives

The objectives of the Region II information security risk evaluation were to:

       Perform an independent information security risk evaluation of the NRC IT security
       program, policies, and practices for compliance with FISMA in accordance with OMB
       guidance and Federal regulations and guidelines as implemented at Region II.
       Evaluate the effectiveness of agency security control techniques as implemented at
       Region II.

The appendix contains a description of the evaluation objectives, scope, and methodology.

3      Findings

Region II has made improvements in its implementation of NRC’s IT security program and
practices for NRC IT systems since the previous evaluations in 2003, 2006, and 2009. All
corrective actions from the previous evaluations have been implemented. However, the Region
II IT security program and practices are not always consistent with the NRC’s IT security
program as defined in Management Directive (MD) and Handbook 12.5, NRC Automated
Information Systems Security Program, other NRC policies, FISMA, and National Institute of
Standards and Technology (NIST) guidance. While many of the Region II automated and
manual IT security controls are generally effective, some IT security controls need improvement.



                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 2
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA

Specifics on physical and environmental security controls, continuity of operations and recovery,
and the Region II IT security program are described in the following sections.

3.1    Physical and Environmental Security Controls

Overall, Region II is implementing the physical and environmental security controls described in
MD and Handbook 12.1, NRC Facility Security Program; MD and Handbook 12.5; and NIST
Special Publication (SP) 800-53, Recommended Security Controls for Federal Information
Systems. Region II has implemented a number of safeguards to restrict access to the facility,
including visitor access controls and physical access control systems. Fire suppression and
detection systems are adequate and meet NRC requirements. Environmental controls are
sufficient to protect IT equipment from potential hazards. Short-term uninterruptible power
supplies (UPSs) provide sufficient power to facilitate an orderly shutdown of IT equipment in the
event of a primary power source loss. However, the evaluation team identified issues with
testing UPSs and key and combination management procedures.

FINDING #1: UPSs Are Not Tested on a Regular Basis

NIST SP 800-53, physical and environmental control PE-11, emergency power, states that
organizations should provide a short-term UPS to facilitate an orderly shutdown in the event of a
primary power source loss. All IT equipment in the Region II data center and
telecommunications closets is connected to short-term UPSs; however, the UPSs are not tested
on a regular basis. As a result, Region II does not have assurance the UPSs will perform as
expected in the event of a power failure. If a UPS fails during a power failure, equipment may
not be shut down in an orderly manner, resulting in possible equipment damage or loss of data.

3.1.1 Emergency Power Requirements

NIST SP 800-53, physical and environmental control PE-11, emergency power, states that
organizations should provide a short-term UPS to facilitate an orderly shutdown in the event of a
primary power source loss.

3.1.2 Agency Has Not Fully Met Requirements

All IT equipment in the Region II data center and telecommunications closets are connected to
short-term UPSs. However, the UPSs are not tested on a regular basis to ensure they are
operating and can provide the requisite amount of power necessary to facilitate an orderly
shutdown of equipment in the event of a primary power source loss. One of the assumptions in
developing the contingency plan for the Region II Office Support System is that data center
equipment is connected to UPSs that provide approximately 20 minutes of electricity during a
power failure.

3.1.3 Impact on Region II Operations

While NIST and NRC do not explicitly require periodic testing of UPSs, if UPSs are not
periodically tested, Region II does not have assurance the UPSs will perform as expected in the


                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 3
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA

event of a power failure. If a UPS fails during a power failure, equipment may not be shut down
in an orderly manner, resulting in possible equipment damage or loss of data.

RECOMMENDATION

     The Office of the Inspector General recommends that the Executive Director for Operations:

     1. Develop, document, and implement procedures for testing UPSs on a periodic basis.
        Procedures should include a means to record the results of such testing.

3.1.4 Physical Access Control Systems

On April 12, 2010, the Region II office moved to 245 Peachtree Center Ave, NE, Atlanta, GA.
These facilities were specifically constructed based upon Region II needs and requirements. One
of the major requirements was to significantly reduce the number of keyed doors, instead
selecting to use electronic access controls. As a result of these requirements, the use of keyed
doors has been greatly reduced.
         4




FINDING #2: Key and Combination Management Procedures Need Improvement

MD and Handbook 12.5 provide guidance for key and combination control procedures, including
the requirement to establish, document, implement, and enforce effective key and combination
control procedures. However, Region key management procedures have not been fully
implemented.




4
    



                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 4
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA




3.1.5 Physical Access Requirements

MD and Handbook 12.5 provide guidance for key and combination control procedures, including
the requirement to establish, document, implement, and enforce effective key and combination
control procedures. Offices are required to create a comprehensive inventory of all keys and
combinations related to the security of office areas, systems equipment, and sensitive areas. The
inventory should include the room number, number of keys, names of individual(s) issued to,
and date issued. Periodic inventories of all keys should be conducted and recorded and
inventories should be maintained as official records for 1 year after they are no longer current.




3.1.6 Agency Has Not Fully Met Requirements

Region II developed the Region II Information Resources Branch Standard Operating Procedure
– Key Inventory Process as a result of a recommendation from OIG’s 2009 Region II computer
security review. This procedure documents key management activities including distribution of
keys, replacement keys, other lock and key work, return of keys, and conducting periodic key
inventories. As part of an internal assessment, Region II has acknowledged that its key
management procedures have not been fully implemented.

                                                                       Region II has initiated an
internal action item using its ticketing system to correct problems identified with its key
management process.




3.1.7 Impact on Region II Operations



                                            For example, a key could be issued without recording


                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 5
                          OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                    Information Security Risk Evaluation of
                                                                                    Region II – Atlanta, GA

information about who was issued the key and when. Documenting these procedures helps
ensure that there is continuity in the key and combination management process in the event of
staff turnover. Additionally, documented procedures are excellent for training new personnel
and an excellent reference for existing personnel.




MD and Handbook 12.5 require combinations to be changed immediately when individuals no
longer have a need for access.




RECOMMENDATIONS

      The Office of the Inspector General recommends that the Executive Director for Operations:

      2. Update key management procedures.




      3. Develop, document, and implement combination management procedures.

         a)


         b)


3.2      Continuity of Operations and Recovery

Region II procedures for maintaining continuity of operations and recovery are generally
consistent with the requirements in MD and Handbook 12.1, MD and Handbook 12.5, NRC
standards, and NIST SP 800-53. Region II has documented procedures for backups of seat-
managed servers, backups of NRC-managed servers, and for offsite backup storage. Region II
has also developed a site-specific Occupant Emergency Plan and a contingency plan for the
Region II Office Support System.




                          OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                  6
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA

However, the evaluation team found that backup procedures are not maintained and kept up-to-
date as required. As a result, Region II may not have reliable IT system backup information
available if there is a need for system or file recovery.

3.2.1 Region II Servers

Region II is supported by IT equipment that is seat-managed and that is NRC-managed. Core
regional servers are provided and managed by the seat management contractor and include
domain controllers, mail servers, multipurpose servers, a tape server, and virtual servers. These
systems contain data utilized by the IT staff, customer data, e-mail accounts, backup tape server
database files and access control. IT staff data includes software packages, workstation images,
Web content, videocast files, and IT shared content. Customer data includes division-shared
folders, personal folders, and other files/folders accessed via regional network mapped shares.
Seat-managed servers are included in the authorization boundary of the IT Infrastructure (ITI)
system. Additional regional servers are owned and managed by Region II and include a Web
server, database servers, a backup server, and virtual servers. These systems contain data
utilized by the IT staff for help desk management and computer imaging files. Data includes
Web server data files, content, and configurations. The data also includes any associated
scripting engines or applications related to the Web server and its configurations. NRC-managed
servers at Region II are included in the authorization boundary of the Region II Office Support
System.

FINDING #3: Backup Procedures Are Not Up-to-Date

MD and Handbook 12.5, NRC standards, and NIST SP 800-53 detail requirements for backups
of IT systems. However, Region II has not met all the requirements. Specifically, backup
procedures are not maintained and kept up-to-date as required. As a result, Region II may not
have reliable IT system backup information available if there is a need for system or file
recovery.

3.2.2 Backup Requirements

MD and Handbook 12.5 detail requirements for backups of IT systems, and states that these
procedures should be implemented when backing up media to ensure that reliable backups are
available if there is a need for system or file recovery. These procedures include, but are not
limited to:

       Backup schedule – outlines the type of backup, the interval for each backup, the storage
       location, and the number of copies of each backup.
       Full backups – performed at least weekly.
       Incremental (differential) backups – performed nightly.
       Location of backups – at least two full backups maintained. One should remain onsite
       and a second copy should be removed to an offsite storage facility immediately after its
       creation.




                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 7
                        OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                  Information Security Risk Evaluation of
                                                                                  Region II – Atlanta, GA


       Backup media – use high-quality media to ensure good quality backups are available for
       recovery should the need arise.
       Storage of backups – store both onsite and offsite backups in a location, cabinet, or safe
       that is waterproof and fireproof for at least 14 days or as recommended by the agency.
       Testing of storage – backups are periodically tested to ensure they can be used effectively
       to restore sensitive information.

CSO-STD-2002, System Back-up Standard, V1.1, dated December 15, 2010, states backup and
recovery procedures are to be developed, documented, approved, maintained, and used for all
systems operated by or on behalf of NRC.

3.2.3 Agency Has Not Fully Met Requirements

Region II has developed backup procedures for both seat-managed servers and NRC-managed
servers. These procedures are documented in the Information Resources Branch (IRB)-IT-03
GFE and Contractor Leased Server Backup Procedures, dated March 31, 2011, as well as in
separate documents maintained by the seat-management server administrator and the Region II
server administrator. As a result of a recommendation from OIG’s 2009 Region II computer
security review, Region II developed the Region II Information Resources Branch Standard
Operating Procedure Region II Offsite Backup Storage Procedures.

While Region II has developed and documented required backup procedures, there was
confusion as to whether the IRB-IT-03 document with the combined procedures was the
“official” version, or if the separately maintained procedures should be considered official
versions. The procedures for backups of NRC-managed servers are the same in the IRB-IT-03
document and in the separate document maintained by the Region II server administrator.
However, the procedures for backups of seat-managed servers in the IRB-IT-03 document were
not current and differed from those in the separate document maintained by the seat-management
server administrator. The procedures in the separate document maintained by the seat-
management server administrator are current; however, they do not contain the same level of
detail as in the older content found in the IRB-IT-03 document, such as a description of the
backup software used, license information for the backup software, a description of the tape
library, a description of the backup job, the account used to run the backup jobs, and a summary
of data on each server. The seat-management server administrator also maintains a monthly
image of the Citrix servers on the behalf of ITI; however, this process is not documented in any
procedures. The Region II server administrator also mentioned the use of shadow copies to
facilitate rapid restores without having to get backup tapes from offsite storage; however, this
process is also not documented in any procedures.

The Region II Offsite Backup Storage Procedures describes the procedures for sending backups
of seat-managed and NRC-managed servers to an offsite location; however, this document refers
to outdated versions of backup procedures for these servers.




                        OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                8
                          OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                    Information Security Risk Evaluation of
                                                                                    Region II – Atlanta, GA

3.2.4 Potential Risk of Data Loss

While the backup procedures that are currently implemented would minimize data loss in the
event of a computer failure, the procedures are not maintained and kept up-to-date as required.
Software performs many of the backups automatically, but someone must periodically change
the tapes. The procedures need to be fully documented so that if the primary personnel
responsible for backups are unavailable, alternates have the information necessary to follow the
procedures. Current and fully documented backup procedures can also be useful when training
new employees with responsibilities for performing backups.

As a result of the failure to meet agency and NIST requirements regarding backups of IT
systems, Region II may not have reliable IT system backup information available if there is a
need for system or file recovery.

RECOMMENDATIONS

      The Office of the Inspector General recommends that the Executive Director for Operations:

      4. Update backup procedures for NRC-managed servers to include procedures for
         maintaining shadow copies to support the backup process.
      5. Update backup procedures for seat-managed servers to include the same level of detail as
         in the backup procedures for NRC-managed servers and procedures for maintaining a
         monthly image of the Citrix servers on the behalf of ITI.
      6. Update offsite backup storage procedures to include correct references to the backup
         procedures for seat-managed and NRC-managed servers.

3.3      Information Technology Security Program

Overall, Region II is following agency security policies and procedures regarding IT security.
Region II has developed regional office instructions that are generally up-to-date and are
available on the Region II internal Web site. Staff receive training regarding IT security during
the onboarding process and the Information Systems Security Officer (ISSO) sends periodic
cybersecurity reminders on topics. Users are generally aware of and are following agency and
Region II IT security policies and procedures. Region II maintains an inventory of IT systems in
use at the region, to include a general support system, two subsystems (applications), and laptops
processing safeguards information (SGI) and classified information.

However, the evaluation team found issues with the Region II laptop systems and with keeping
Region II IT security program procedures up-to-date.

3.3.1 Region II Laptop Systems

Laptops in use at Region II are either seat-managed laptops or NRC-owned laptops. Seat-
managed laptops in use at Region II include those laptops that are part of the agency’s new work
from anywhere/mobile desktop program. NRC-owned laptops in use at Region II include loaner



                          OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                  9
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA

laptops, stationary laptops found in conference rooms, and laptops used to process classified
information or SGI.

FINDING #4: Some Laptops Are Not Authorized To Operate and Documentation for
Regional Laptop Systems Is Not Up-to-Date

The NRC Laptop Security Policy, which specifies the requirements for authorization of laptop
systems, states that all NRC laptops must be either designated a system or included as part of an
existing system. NRC-owned laptops in use at Region II include loaner laptops, stationary
laptops found in conference rooms, and laptops used to process classified information or SGI.
However, the evaluation team found that some NRC-owned laptops have not been authorized to
operate and documentation for regional laptop systems is not up-to-date. As a result, Region II is
not fully compliant with NRC requirements for laptop systems. Without up-to-date
documentation, Region II laptop systems users may not be aware of their responsibilities with
regard to use of these laptops, which could lead to unauthorized use of NRC resources or release
of sensitive information.

3.3.2 Laptop System Requirements

The NRC Laptop Security Policy states that all NRC laptops must either be designated a system
or be included as part of an existing system. All laptops that are not seat-managed are
considered to be organization-managed, i.e., NRC-owned. All NRC-owned laptops that process
or access classified national security information belong to that office or region’s “Classified
Laptop System.” All NRC-owned laptops that process or access SGI and are not part of the
office or region’s “Classified Laptop System” belong to that office or region’s “SGI Laptop
System.” All NRC-owned laptops that are not part of the office or region’s “Classified Laptop
System” or the office or region’s “SGI Laptop System” belong to that office or region’s “General
Laptop System.”

The NRC Laptop Security Policy also specifies the following requirements for authorization
(formerly referred to as accreditation):

       Laptop systems must meet the requirements provided in the relevant standard security
       plan. There is a different standard security plan for classified, SGI, and general laptops.
       Laptop systems must be certified by the system owner as compliant with the relevant
       laptop system requirements.
       Laptop systems must be accredited by the appropriate Designated Approving Authority
       prior to processing any relevant (i.e., classified, SGI, sensitive unclassified) information
       on the system.
       Certification of a laptop system requires a system certification memorandum from the
       laptop system owner. The memorandum must include an enclosure that provides the
       names and contact information for the: System Owner, Certification Agent, ISSO,
       Alternate ISSO, and System Administrator.




                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 10
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA


       For each laptop or removable hard drive that is part of the laptop system, the enclosure
       must provide information such as physical storage location, location where system is
       used, brand, model, tag number, peripherals, etc.

3.3.3 Agency Has Not Fully Met Requirements

Region II currently has two laptop systems – a classified laptop system (currently two laptops)
and an SGI laptop system. The SGI laptop system consists of two separate subsystems – SGI
laptops in use in the Region II office (currently four laptops), and SGI laptops in use at the
Resident Inspector sites (multiple laptops, recently replaced by Safeguards Information Local
Area Network and Electronic Safe workstations). In 2009, Region II submitted certification
memoranda and the required enclosure for authorization of the following laptop systems. These
systems were authorized to operate until August 2012.

       Region II Classified Laptop System (2 laptops).
       Region II SGI Standalone Personal Computer System (four laptops).
       Region II SGI Laptop System (laptops at Resident Inspector sites).

Region II is currently in the process of replacing the two classified laptops with four new units
and the two SGI laptops with two new units.

Some Laptops Are Not Authorized To Operate

Region II has not established a general laptop system, which would include its loaner laptops and
stationary laptops found in conference rooms. Region II is evaluating whether to continue to
manage these laptops as NRC-owned laptops, or to replace them with seat-managed laptops. If
Region II decides to continue to manage these laptops as NRC-owned laptops, then Region II
will need to establish a general laptop system and complete the process described in the NRC
Laptop Security Policy for authorization of the general laptop system.

Documentation for Regional Laptop Systems Is Not Up-to-Date

The following Regional Office Instructions (ROI) have been issued to provide an overview of
the security requirements, description of security controls, and delineation of the responsibilities
and expected behavior of all individuals who use laptops that process classified and SGI
information:

       ROI No. 1251, Revision 1, Region II System Security Plan for Processing Classified
       Information, dated June 4, 2012.
       ROI No. 1250.1, Region II System Security Plan for Processing Safeguards Information
       (Laptop Computer System), dated September 10, 2003.
       ROI No. 1250.2, Region II System Security Plan for Processing Safeguards Information
       (Removable Hard Drive System), dated September 2003.




                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 11
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA

ROI No. 1251, Revision 1, corresponds to the four new classified units currently awaiting
authorization to operate. The previous version of ROI No. 1251, dated September 26, 2003,
corresponded to the two classified laptops currently authorized to operate. However, ROI No.
1250.1 and 1250.2 do not correspond to either of the SGI laptop systems (the four laptops in use
at the Region II office and the laptops recently removed from the Resident Inspector sites)
currently authorized to operate.

3.3.4 Impact on Region II Operations

While Region II has followed the procedures in the NRC Laptop Security Policy for
authorization of its classified and SGI laptop systems, it has not followed this process for
authorization of the general laptop system. In addition, Region II has not kept the ROIs up-to-
date that correspond to the different laptop systems. As a result, Region II is not fully compliant
with NRC requirements for laptop systems. Without up-to-date documentation, Region II laptop
systems users may not be aware of their responsibilities with regard to use of these laptops,
which could lead to unauthorized use of NRC resources or release of sensitive information.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   7. Establish a general laptop system and complete the process described in the NRC Laptop
      Security Policy for authorization of the general laptop system.
   8. Update ROI 1250.1/1250.2 to correspond to the SGI laptop systems in use at Region II
      and currently authorized to operate.

3.3.5 Regional Procedures and Instructions

Region II uses various types of procedures to implement their IT security program. These
procedures include standard operating procedures issues by the Division of Resource
Management and Administration Information Resources Branch and ROI. Standard operating
procedures are used to describe specific activities, such as key and keycard management and
performing backups. ROI are typically used to disseminate, implement, clarify, or amplify
policy or other information contained in other NRC documents. For example, Region II uses
ROI to communicate various aspects of the Region II security program, including personnel
security, facility security, telecommunications security, and security for sensitive, SGI, and
classified information.

FINDING #5: Regional IT Security Program Procedures Are Not Kept Up-to-Date

NRC has developed several security standard that specify the frequency of reviewing and
updating IT security program procedures. However, as discussed in finding 2, 3, and 4, regional
IT security program procedures are not kept up-to-date. As a result, steps or processes could be
skipped or forgotten if personnel responsible for a particular activity are unavailable. In
addition, outdated procedures make it more difficult when training new personnel to handle a
specific activity.


                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 12
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA



3.3.6 Requirements for Updating Procedures

CSO-STD-0020, defines the mandatory values for specific controls in the eighteen security
controls families described in NIST SP 800-53. The standard requires that documented
procedures to facilitate the implementation of a control should be reviewed and updated
annually. The standard also requires system owners to review system security plans at least
annually and update them to address changes to the information system and/or environment of
operation. CSO-STD-2001, Operating Procedures Standard, V1.1, dated April 15, 2011, states
that documented and periodically reviewed operational procedures and responsibilities capture
the requirements for secure operation of information systems and effective management and
support of IT systems. This standard requires system owners to ensure operating procedures are
reviewed and approved on a periodic basis, at least annually.

3.3.7 Agency Has Not Fully Met Requirements

Region II has documented procedures to facilitate the implementation of specific IT security
controls, including key management, performing backups, and security for sensitive, SGI, and
classified information. However, as discussed in findings 2, 3, and 4, the evaluation team found
that several of these procedures are not up-to-date.

Region II does not have a process for reviewing and updating procedures on a periodic basis.
ROI No. 0201, Revision 9, System of Instructions and Notices, dated March 19, 2012, describes
the process for issuing ROIs; however, it does not specify the frequency for which ROIs should
be reviewed to determine if they require updates.

3.3.8 Impact on Region II Operations

Outdated procedures can result in steps or processes being skipped or forgotten if personnel
responsible for a particular activity are unavailable. In addition, outdated procedures make it
more difficult when training new personnel to handle a specific activity. In the case of the
outdated ROIs, Region II is not in compliance with NRC requirements for laptop systems.
Without up-to-date procedures, Region II laptop systems users may not be aware of their
responsibilities with regard to use of these laptops. Current procedures ensure continuity in
performing a specific IT security function in the event of staff turnover and are excellent for
training new personnel and an excellent reference for existing personnel.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   9. Develop, document, and implement a procedure for reviewing and updating IT security
      program procedures, including regional office instructions, on an annual basis.




                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 13
OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                          Information Security Risk Evaluation of
                                                          Region II – Atlanta, GA




         [Page intentionally left blank]




OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                        14
                        OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                  Information Security Risk Evaluation of
                                                                                  Region II – Atlanta, GA

4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Develop, document, and implement procedures for testing UPSs on a periodic basis.
       Procedures should include a means to record the results of such testing.
    2. Update key management procedures.




    3. Develop, document, and implement combination management procedures.

       a)


       b)

    4. Update backup procedures for NRC-managed servers to include procedures for
       maintaining shadow copies to support the backup process.
    5. Update backup procedures for seat-managed servers to include the same level of detail as
       in the backup procedures for NRC-managed servers and procedures for maintaining a
       monthly image of the Citrix servers on the behalf of ITI.
    6. Update offsite backup storage procedures to include the correct references to the backup
       procedures for seat-managed and NRC-managed servers.
    7. Establish a general laptop system and complete the process described in the NRC Laptop
       Security Policy for authorization of the general laptop system.
    8. Update ROI 1250.1/1250.2 to correspond to the SGI laptop systems in use at Region II
       and currently authorized to operate.
    9. Develop, document, and implement a procedure for reviewing and updating IT security
       program procedures, including regional office instructions, on an annual basis.




                        OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                15
OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                          Information Security Risk Evaluation of
                                                          Region II – Atlanta, GA




         [Page intentionally left blank]




OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                        16
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA

5      Agency Comments

At an exit conference on July 13, 2012, agency officials agreed with the findings and did not
provide any changes to the draft report. The agency opted not to submit formal comments.




                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 17
OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                          Information Security Risk Evaluation of
                                                          Region II – Atlanta, GA




         [Page intentionally left blank]




OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                        18
                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                   Information Security Risk Evaluation of
                                                                                   Region II – Atlanta, GA

Appendix.         OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES

The objectives of the Region II information security risk evaluation were to:

        Perform an independent information security risk evaluation of the NRC computer
        security program, policies, and practices for compliance with FISMA in accordance with
        OMB guidance and Federal regulations and guidelines as implemented at Region II.
        Evaluate the effectiveness of agency security control techniques as implemented at
        Region II.

SCOPE

The scope of this information system security evaluation included:

        The six floors Region II occupies in the Marquis One Tower, 245 Peachtree Center
        Avenue N.E., Suite 1200, Atlanta, GA 30303-8931.
        Region II seat-managed equipment.
        Region II NRC-managed equipment.

The information system security evaluation did not include controls related to the management
of safeguards or classified information.

The evaluation work was conducted during a site visit to Region II in Atlanta, GA, between July
9, 2012, and July 13, 2012. Any information received from the agency subsequent to the
completion of fieldwork was incorporated when possible. Throughout the evaluation, evaluators
were aware of the potential for fraud, waste, or misuse in the program.

METHODOLOGY

Richard S. Carson & Associates, Inc. conducted a high-level, qualitative evaluation of NRC
computer security program, policies, and practices as implemented at Region II, and evaluated
the effectiveness of agency security control techniques as implemented at Region II.

In conducting the information security risk evaluation, the following areas were reviewed:
physical and environmental security controls, logical access controls, configuration management,
information system security program, and continuity of operations and recovery. Specifically,
the evaluation team conducted site surveys of the six floors Region II occupies in the Marquis
One Tower, 245 Peachtree Center Avenue N.E., Suite 1200, Atlanta, GA 30303-8931, focusing
on the areas that house IT equipment. The team conducted interviews with the Region II ISSO,
the seat-management server administrator, the Region II server administrator, and other Region
II staff members responsible for implementing the agency’s information system security program
at Region II. The evaluation team also conducted user interviews with 15 Region II employees,
including two Resident Inspectors and one teleworker. The team reviewed documentation


                         OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                 19
                        OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                                  Information Security Risk Evaluation of
                                                                                  Region II – Atlanta, GA

provided by Region II including floor plans; inventories of IT systems, hardware, and software;
local policies and procedures; security plans; backup procedures; contingency plans, and the
Occupancy Emergency Plan. The information security risk evaluation also included a network
vulnerability assessment scan of the Region II network and the Region II Resident Inspector
sites.

All analyses were performed in accordance with guidance from the following:

       NIST standards and guidelines.
       NRC MD and Handbook 12.5, NRC Automated Information Security Program.
       NRC Computer Security Office policies, processes, procedures, standards, and
       guidelines.
       NRC OIG audit guidance.

The work was conducted by Jane M. Laroussi, CISSP, CAP, GIAC ISO-17799; Virgil Isola,
CISSP; and Joseph Rood, GWAPT, CISSP, CISA, from Richard S. Carson & Associates, Inc.




                        OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                20
